HHS/OIG, Audit -"Review of Family Planning Service Costs Claimed by Delawares
Medicaid Managed Care Program,"(A-03-03-00220)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Family Planning Service Costs Claimed by Delawares
Medicaid Managed Care Program," (A-03-03-00220)
January 9, 2006
Complete
Text of Report is available in PDF format (830 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Delaware Health and Social Services (Delaware) claimed
family planning service costs under its Medicaid managed care program in accordance with
its CMS-approved methodology and Federal statutes, regulations, and guidelines.  We
could not validate Delawares family planning service rates, which were based on fee-for-service
claims incurred between July 1, 1991, and June 30, 1994, because Delaware did not provide
documentation to support its calculations.  Because Delaware could not justify its calculation
of family planning service costs, it was not entitled to the $2.9 million enhanced Federal
share.
We recommended that Delaware (1) provide support for family planning service costs claimed
between October 2000 and June 2004 or refund $2,916,288 to the Federal Government and (2)
work with CMS to determine the amounts claimed for family planning service costs after June
2004, refund the enhanced portion to the Federal Government, and discontinue claiming family
planning service costs at the enhanced rate until it provides adequate support for its family
planning rates.  In comments, Delaware did not agree that was required to refund enhanced
reimbursement, based on its belief that CMS had previously approved supporting documentation.